                                          UNITED STATES DEPARTMENT OF EDUCATION 

                                               OFFICE OF INSPECTOR GENERAL 

                                                                     REGION V 

                                                             III NORTH CANAL. SUITE 940
                                                               CHICAGO. ILLINOIS 60606
                                                                                                                                                              I
                                                                                                                                                              ~
                                                                                                                                                              ~
                                                                   FAX: (312) 353-0244
     Audit                                                                                                                                    Investigation
                                                                                                                                                              I
(312) 886-6503                                                                                                                               (312) 353-7891   I




                                                                                                         SEP 30 2003
                                                                                     Control Number ED-OIG/A05-D0024


                 Mr. Robert L. Duffy, Superintendent
                 Career Success High School
                 1777 W. Camelback Road, N -100
                 Phoenix, AZ 85015

                 Dear Mr. Duffy:

                 This Final Audit Report presents the results of our audit of Career Success High
                 School's (School) use of U.S. Department of Education (ED) funds for the period July 1,
                 2001, through June 30, 2002 (project period). The objective of our audit was to
                 determine if the School expended ED funds according to the law and applicable
                 regulations.

                 Our audit disclosed that the School did not expend Public Charter Schools Program
                 (PCSP) grant funds in accordance with the law. Of the $200,000 in PCSP funds received
                 for the project period, the School used $16,884 1 for unallowable costs.

                 We provided the School with a draft of this report. The School did not concur with the
                 finding and recommendation to refund PCSP funds to ED presented in this final report.
                 The School concurred that it did not have policies and procedures in place to provide
                 reasonable assurance that PCSP funds were expended for allowable activities during our
                 audit period. It provided a detailed justification explaining why it considered costs
                 allowable. Our review of the School's explanation caused us to change our finding in
                 this report by eliminating some costs (i.e., basketball jerseys and membership fees) that
                 we initially identified as being unallowable. We also modified our procedural
                 recommendation to reflect that the School informed us that it had implemented policies
                 and procedures. The School's comments are summarized in the body of the report and
                 included in their entirety as an attachment.




                 I The School charged $201,002 to the PCSP grant, $1,002 more than the $200,000 in PCSP funds it 

                 received for the project period. Therefore, we will only recommend recovery of$15,882 ($16,884 in 

                 unallowable costs less $1,002). 



                       Our mission is to promote the efficiency, effectiveness, and integrity of the Department's programs and operations.
Final Audit Report	                                                                   ED-OIG/A05-D0024


                                          AUDIT RESULTS 


Finding No. 1	 The School Charged $16,884 in Unallowable Costs to the PCSP
               Grant

The School charged $16,884 to the PCSP grant for costs that were unallowable. We
judgmentally2 selected 41 expenditures totaling $80,074 from the 145 expenditures
totaling $201,002 charged to the PCSP grant for the project period. We reviewed
supporting documentation such as requisition forms, purchase orders, invoices, and
canceled checks for these 41 expenditures and noted that 10 were for accounting and
legal services.3 These accounting and legal services expenses were not part of the
School’s initial startup costs and, therefore, were not reasonable and necessary for the
initial implementation of the School. The School should have paid these expenses from
other sources.

The Elementary and Secondary Education Act of 1965, as amended by the Improving
America’s Schools Act of 1994, Title X, Part C, Section 10304(f)(3), and the Charter
School Expansion Act of 1998,4 allows charter schools to spend funds for activities
related to post award planning and design of the educational programs and initial
implementation of the charter school. Activities related to initial implementation may
include (a) informing the community about the school, (b) acquiring necessary equipment
and educational materials and supplies, and (c) acquiring or developing curriculum
materials. Charter schools are allowed to pay for other initial operational costs not met
by other sources provided that those costs are directly related to the intended purpose of
the grant. The intent of the PCSP grant is to pay for necessary items and services that
would support the initial implementation and operations of the school while also allowing
the school to become financially independent. Additionally, pursuant to Office of
Management and Budget Circular No. A-122, Cost Principles for Non-Profit
Organizations, Attachment A, Section A, paragraphs 2(a) and 3(a), to be allowable, a
cost must be reasonable, allocable, ordinary, and necessary for the operation of the
organization or the performance of the award.

The School did not have policies and procedures in place to provide reasonable assurance
that PCSP funds were expended for activities allowable under the law. Instead, School
officials relied on their own interpretation of the charter school law when expending
PCSP funds. The costs we identified as unallowable were not included in the School’s
PCSP grant budget. Had School officials reviewed their PCSP grant budget or contacted
an ED charter school program official before incurring these costs, the School may not
have expended PCSP funds on unallowable costs.




2
  We selected large dollar expenditures and/or those with cost descriptions that, in our opinion, were 

inconsistent with the intent of the PCSP grant. 

3
  The accounting and legal services expenses were used to pay for dissolution of the School’s partnership. 

4
  The law was further amended by the No Child Left Behind Act of 2001, Title V, Part B. 



                                                     2

Final Audit Report	                                                               ED-OIG/A05-D0024


Because School officials used $16,8845 in PCSP grant funds to pay for general
operational costs, the School was unable to use those funds to purchase items that would
increase the chances of the School becoming financially independent.

Recommendations

We recommend that the Chief Financial Officer, Office of the Chief Financial Officer, in
conjunction with the Deputy Under Secretary for Innovation and Improvement, instruct
the School to

1.1     	refund $15,8826 to ED; and

1.2 	   provide evidence that it has implemented policies and procedures that provide
        reasonable assurance that ED funds are expended on activities that are allowable
        under the law.

Auditee Comments

The School disagreed that it charged unallowable costs to the PCSP grant. The School’s
Superintendent of Schools (Superintendent) stated that the School considered the legal
and accounting fees to be startup costs. The Superintendent explained that the legal and
accounting fees were allowable during the first year of the grant, and the School did not
receive direction that these costs would not be allowable during the second year.

The School agreed that, during the audit period, it did not have controls in place to ensure
that PCSP funds were expended on allowable activities. The Superintendent stated that
the School went through some major internal management and personnel changes that
had a direct affect on the School’s ability to track and report on changes in its grants
management system. The Superintendent informed us that the School has reconstructed
the accounting records for the 2001 – 2002 school year and used the same accounting
procedures for the 2002 - 2003 school year. Additionally, the School developed policies
and procedures that were implemented during the 2002 – 2003 school year. These
policies and procedures were implemented to ensure that PCSP funds were expended
according to law and applicable regulations.




5
  Comprised of accounting and legal services expenses totaling $16,884. 

6
  The School charged $201,002 to the PCSP grant, $1,002 more than the $200,000 in PCSP funds it 

received for the project period. Therefore, we only recommend recovery of $15,882 ($16,884 in 

unallowable costs less $1,002). 



                                                   3
Final Audit Report	                                                                    ED-OIG/A05-D0024


OIG Response

We reviewed the School’s comments and found no basis for changing our position that
the accounting and legal services expenses charged to the PCSP grant were unallowable.
The School admitted that these expenses were incurred as a result of the dissolution of
the School’s original partnership. The PCSP funds expended for the dissolution of the
School’s partnership were not necessary for the initial implementation and operation of
the School.

                                            BACKGROUND

The purpose of the PCSP is to provide grants for the planning, design, and initial
implementation of charter schools created by members of the local community. Grants
may be made for a period of up to three years. Funds may be used to plan and design the
education program of the charter school and evaluate the effects of charter schools.

Charter schools are governed by the charter school legislation enacted in the Elementary
and Secondary Education Act of 1965, as amended by the Improving America’s Schools
Act of 1994, Title X, Part C, Section 10304(f)(3), and the Charter School Expansion Act
of 1998.7 Charter schools that receive a grant directly from the federal government must
also adhere to regulations listed in 34 C.F.R. Parts 75, 82, and 99.

The School received its charter from the Arizona State Board of Education and opened in
August 2000. The School applied for a PCSP grant and received its award from ED on
May 11, 2000. The grant provided the School with startup funding for a three-year
period. For the project period (July 1, 2001, through June 30, 2002), the School received
$200,000 in PCSP grant funds.8

                        OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine if the School expended ED funds according
to the law and applicable regulations. Our audit covered $50,000 authorized by ED on
June 16, 2001, $150,000 authorized by ED on July 24, 2001, and costs charged to the
PCSP grant for the project period.

To accomplish our objective, we

•	         interviewed School personnel;
•	         reviewed accounting records showing 145 expenditures totaling $201,002 charged
           to the PCSP grant for the project period;
•	         judgmentally selected 41 expenditures totaling $80,074. We selected large dollar
           expenditures and/or those with cost descriptions that, in our opinion, were
           inconsistent with the intent of the PCSP law; and


7
    The law was amended by the No Child Left Behind Act of 2001, Title V, Part B. 

8
    The School received authorization for $50,000 in June 2001 and an additional $150,000 in July 2001. 



                                                       4

Final Audit Report	                                                      ED-OIG/A05-D0024


•	      compared the accounting records with supporting documentation (requisition
        forms, purchase orders, invoices, and canceled checks) to determine if the 41
        expenditures were allowable and supportable.

We also relied, in part, on computer-processed data that the School maintained using
Peachtree© and QuickBooks©. We compared the School’s data with information from
ED’s Central Automated Processing System. We also compared the School’s supporting
documentation (such as requisition forms, invoices, purchase orders, and canceled
checks) with the School’s computerized accounting records. Based on our tests, we
concluded the data were sufficiently reliable to be used in meeting the audit’s objectives.
We performed our audit work between December 2002 and March 2003. We visited the
School on December 3, 2002, and discussed the results of our audit with School officials
on March 25, 2003.

Our audit was performed in accordance with generally accepted government auditing
standards appropriate to the scope of audit described above.

                      STATEMENT ON MANAGEMENT CONTROLS

As part of our audit, we did not assess the adequacy of the School’s management control
structure applicable to all ED awards because this step was not necessary to achieve our
audit objective. Instead, we relied on testing of the School’s compliance with the PCSP
law and applicable regulations. Our testing disclosed a material weakness in the School's
management controls over ED awards. The School did not have policies and procedures
in place to provide reasonable assurance that PCSP funds were expended according to the
law. This weakness is discussed in the AUDIT RESULTS section of this report.

                            ADMINISTRATIVE MATTERS

Statements that managerial practices need improvements, as well as other conclusions
and recommendations in this report, represent the opinions of the Office of Inspector
General. Determinations of corrective action to be taken will be made by the appropriate
ED officials.

If you have additional comments or information that you believe may have a bearing on
the resolution of this audit, you should send them directly to the following ED officials,
who will consider them before taking final action on the audit.

                        Jack Martin
                        Chief Financial Officer
                        Office of the Chief Financial Officer
                        400 Maryland Avenue, SW, Room 4E313
                        Washington, DC 20202




                                             5

Final Audit Report                                                       ED-OIG/A05-D0024


                      Nina Shokraii Rees, Deputy Under Secretary
                      Office of Innovation and Improvement
                      U.S. Department of Education
                      400 Maryland Avenue, SW, Room 4 W317
                      Washington, DC 20202

It is ED's policy to expedite the resolution of audits by initiating timely action on the
findings and recommendations contained therein. Therefore, receipt of your comments
within 30 days would be greatly appreciated.

In accordance with the Freedom oflnformation Act (5 U.S.C. §552), reports issued by
the Office of Inspector General are available to members of the press and general public
to the extent information contained therein is not subject to exemptions in the Act.




                                              Regional Inspector General
                                              for Audit

Attachment




                                              6
Attachment




             Career Success Schools
                         1777 W. Camelback Rd. N-f()()           Pf'Jone: 6fJ2·285-~25
                         PtIoenix, AZ 85015                          Fn: 602- 285-0026
                                                               Toll FrtI8: 866-285-5574


             Mr. Richard Dowd                                               August 29, 2003
             Regional Inspector General for Audit
             U.S. Department of Education
             Office of Inspector General
             111 N. Canal St. , Suite 940
             Chicago, IL 60606

             Dear Mr. Dowd,

             Response to Draft Audit Report - Career Success High School
             Audit year ' 2001-02

             Finding 1.1 The School Charged UnaJtowable Costs to the PCSP Grant

             Response:    We accept the fact that 13 items were determined unallowable­
                          primarily legal services, basketball jerseys and membership fees­
                          totaling $18,131 .

             Rationale: The costs were charged to our PCSP grant with the understanding
             that they would be considered startup costs. A clear definition of what
             constitutes a ·slart-up cost" was never made clear by the department in the 3
             years of participation. I personally attend 2 wor1<.shops in Phoenix and a seminar
             atlhe national convention in Washington DC where Donna Hoblit spoll;e 00 what
             constituted a ·start-up cost." Other than the general categories of wages,
             construction and obvious expenses nol related to start-up, many costs were left
             to interpretation.

             The basketball jerseys were required as part of a start-up program we deemed
             important by offering athletics to our students. We were fortunate to join a
             league that had a full schedule that ran for 3 months. Fifteen boys were outfitted
             for jerseys and participated. The basketball program had a positive affect on our
             inner city youth and their attendance and personal feeling of self worth. Many
             students had not played on an organized athletic team and now, because of the
             program, have the opportunity.




                                                         1
Attachment




                                                                               Page 2


         The membership fee was to join the Arizona Charter School Association· 5450,
         We considered this a "start·up· cq>t in that we could join an association that
         would assist us in our initial growt!;l and insure success as a charter schooL
         Belonging to the Association and being an "active' member meant that we would
         be informed on issues, reporting procedures and dates, receive necessary
         assistance when needed and sha~e ideas and grow along with other successful
         charters. Active membership would only enhance our stability as a charter
         schooL

         The use of PCSP money for these two items in its 21'1C1 year of operation was
         solely intended to further establish, a more solid schooL

         The legal and accounting fees were charged to the PCSP money using a similar
         interpretation - necessary costs tq insure the success of the charter. The 1-
         year of the PCSP grant allowed this expenditure. We did oot receive any
         direction that these costs would not be allowed the 21'1C1 year.


         Finding 1.2 lack of Policies and Procedures in Place to Provide Reasonable
                     Assurance that PCSP Funds were Expended for Activities Allowable
                      Under the law

         Response: During the second year of the grant2001'()1 Career Success High
                   School went through some major internal management and
                   personnel changes that had a direct affect on our grants
                   management in terms of tracking and reporting.

         Rationale: The 2001-02 school year (21'1C1 year of PCSP Grant for Career
         Success High School) began with two other partners - a Jeff OeMatte and Elisha
         Madden. Though I am the charter holder, both gentlemen partnered with me in
         starting Career Success the year before. Jeff handled all financial functions
         including federal · start·up· and titie monies. He kept the checkbook, approved
         and made all purchases while Elisha and I ran the day· tCH:lay operations.

         To complicate matters more Jeff and Elisha were starting their own schools as
         charter holders. The three of us cbntinued to work together and share
         responsibilities in the total operat~ns of the 3 schools.

         Unfortunately controls were not p~t in place, Helen Fortune was named principal
         of Career Success HS that 21'1C1 year. She offered very tittle in terms of expertise
         with grant dollars. Jeff did the best he could, but again with little direction. All
         records and transactions were kept in Peachtree,




                                                   2
Attachment




                                                                               Page 3


         Consequently, I accept the blame in that I assumed that everything was in
         compliance since we had the services of a reputable CPA firm - Zolondek,
         Strassels, Greene - Phoenix, AZ.

         In FebllJary 2002 the partnership was dissolved and I immediately turned all
         financial functions - payroll, accounts payable1receivable, lax filings, budgeting,
         reporting, reconciliation's - over to ETC (Educational Technologies Consultants
         - Chandler, AZ), a reputable accounting firm of 3 years servicing only charter
         schools.

         Both accounting fees and legal fees were incurred when our partnership
         dissolved. Zoiondek had to provide a year-to--date summary of all financia ls for
         the transition and our attorney drew up and supplied the necessary documents
         for dissolution.

         To further complicate matters in April, 2002, I hired a business manager who had
         wori<ed in the same capacity at a charter school. She was competent in some
         areas but ladled the understanding of grants management. She was terminated
         in September, 2002. Since that time Judy Coleman, a full-time consultant, has
         taken over our grants management and was able to straighten out all of the
         records and set procedures for spending in 2002-03.

         We are very pleased with the wor1<. of both ETC and Judy Coleman. We are still
         with ETC for all of are financial needs. In FebllJary of 2002 they reconstructed
         the entire 2001-02 school year in Quick Books for the purposes of our 2001-02
         independent audit. This past month they have also taken over our grants
         management which assures our implementation and adherence to policies and
         procedures for all federal spending.

         Going forward , we now have the policies and procedures in place and our 2002·
         03 use of PCSP funds have been expended property.

         In closing I would like to emphasize that the funds over the past 3 years have
         been put to good use and has strengthened the school to become financially
         independent The 2001-02 audit shows an increased cash flow of over $150,000
         for the year.

         Also please understand that there was never an attempt to openly use the funds
         inadvertenlly. A lack of understanding of what constituted PCSP dollars and
         numerous key personnel changes over the past 18 months led to your findings
         and conclusions.




                                                   3
Attachment




                                                                           Page 4



         Career Success High School stands ready to refund the amount indicated to the
         Department of Education if that is the case. I would hope, however, that the
         department would forgive the error in judgment on interpretation and allow the
         school to keep the funds.



         Th~nk
           you in a~d
                   ance. .


         BobDu
         Superin odent of     hools
         Career Success Schools
         Direct Line - 602-380-7993




                                                 4
